Report No. DODIG-2012-119                   August 14, 2012




    Most Geographic Combatant Commands Effectively
   Planned and Executed Disaster Relief Operations, but
             Improvements Could be Made
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil, or by mail:

                       Department of Defense Office of Inspector General
                       Office of the Deputy Inspector General for Auditing
                       ATTN: Audit Suggestions/13F25-04
                       4800 Mark Center Drive
                       Alexandria, VA 22350-1500




Acronyms and Abbreviations
AOR
	                  Area of Responsibility
ASD (SO/LIC)
	         Assistant Secretary of Defense for Special Operations/
                        Low-Intensity Conflict
COCOM
	                Combatant Command
DOS
	                  Department of State
DSCA
	                 Defense Security Cooperation Agency
FDR
	                  Foreign Disaster Relief
OFDA
	                 Office of Foreign Disaster Assistance
OHDACA
	               Overseas Humanitarian, Disaster, and Civic Aid
OSD
	                  Office of the Secretary of Defense
USAFRICOM
	            U.S. Africa Command
USCENTCOM
	            U.S. Central Command
USEUCOM
	              U.S. European Command
USPACOM
	              U.S. Pacific Command
USSOUTHCOM
	           U.S. Southern Command
USAID
	                U.S. Agency for International Development
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500




                                                                                 August 14, 2012


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR POLICY
               COMMANDER, U.S. EUROPEAN COMMAND
               COMMANDER, U.S. CENTRAL COMMAND
               COMMANDER, U.S. SOUTHERN COMMAND
               COMMANDER, U.S. PACIFIC COMMAND
               COMMANDER, U.S. AFRICA COMMAND
               DIRECTOR, DEFENSE SECURITY COOPERATION AGENCY
               DIRECTOR, JOINT STAFF

SUBJECT: 	 Most Geographic Combatant Commands Effectively Planned and Executed
           Disaster Relief Operations, but Improvements Could Be Made
           (Report No. DODIG-2012-119)

We are providing this report for your information and use. Although most geographic combatant
commands effectively planned and executed several disaster relief operations, the efficiency of
those operations could be improved with updated DoD disaster relief policy and the
implementation of several best practices. We considered management comments on a draft of
the report in preparing the final report.

Comments from the Under Secretary of Defense for Policy were partially responsive but met the
intent of the recommendations. The comments from the Commanders, U.S. European, Central,
Southern, Pacific, and Africa Commands, conformed to the requirements. Therefore, we do not
require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).




                                             Amy J. Frontz
                                             Principal Assistant Inspector General
                                               for Auditing
Report No. DODIG-2012-119 (Project No. D2011-D000JA-0280.000)                          August 14, 2012
	


                Results in Brief: Most Geographic Combatant
                Commands Effectively Planned and
                Executed Disaster Relief Operations, but
                Improvements Could Be Made

What We Did                                                     What We Recommend
We evaluated the ability of the combatant                       The Commanders, U.S. European, Central,
commands (COCOMs) to plan and execute foreign                   Southern, Pacific, and Africa Commands, should
disaster relief (FDR) operations to prevent instability         implement best practices for FDR in key areas, such
in their areas of responsibility. We also assessed the          as command procedures, information sharing,
support provided by DoD organizations to enable the             phase-zero activities, and dissemination of lessons
COCOMs to effectively conduct FDR operations.                   learned.

What We Found                                                   In addition, Under Secretary of Defense for Policy,
                                                                in coordination with the geographic combatant
The U.S. European, Central, Southern, and Pacific
                                                                commanders, should identify steps to improve
Commands have effectively planned and executed
                                                                information sharing with non-DoD partners during
several FDR operations. Additionally, DoD
                                                                FDR operations.
organizations provided satisfactory support to
COCOM FDR operations. However, improvements
in FDR operations are needed, such as formalizing               Management Comments and
response procedures, promoting information sharing,             Our Response
increasing phase-zero activities, promoting the
                                                                U.S. European, Central, Southern, Pacific, and
sharing of lessons learned, and updating
                                                                Africa Commands comments were responsive to the
DoD Directive (DoDD) 5100.46, “Foreign Disaster
                                                                recommendation. Comments from the Under
Relief,” December 4, 1975.
                                                                Secretary of Defense for Policy were partially
                                                                responsive but met the intent of the
Improvements are needed because COCOMs may
                                                                recommendations; additional comments are not
not have known about or been required to implement
                                                                required. Although not required to, the Defense
best practices for FDR. In addition, the Under
                                                                Security Cooperation Agency and Joint Staff also
Secretary of Defense for Policy did not update the
                                                                provided comments. Please see the
37-year-old directive on FDR in a timely manner.
                                                                recommendations table on the back of this page.
As a result, the most efficient practices for FDR are
                                                                Figure. DoD Air Traffic Control Center in Haiti
not available to all COCOMs. This is especially
                                                                  During Operation Unified Response in 2010
important to COCOMs that have not executed a
large FDR operation, such as U.S. Africa Command,
to prevent similar obstacles already faced and
overcome at other commands. Additionally, a lack
of updated guidance can lead to inconsistent
interpretations of authorities and responsibilities to
provide FDR assistance. Without best practices and
up-to-date guidance, DoD is less likely to achieve
efficiencies when handling potential and actual
disasters.

                                                                  Source: U.S. Southern Command Web site.



                                                          i
	
Report No. DODIG-2012-119 (Project No. D2011-D000JA-0280.000)         August 14, 2012

Recommendations Table

            Management                          Recommendations         No Additional
                                               Requiring Comment    Comments Required
Under Secretary of Defense for Policy                              2, 3.a, 3.b
Commander, U.S. European Command;                                  1
Commander, U.S. Central Command;
Commander, U.S. Southern Command;
Commander, U.S. Pacific Command; and
Commander, U.S. Africa Command




                                        ii
	
Table of Contents

Introduction                                                                     1


      Objective                                                                  1

      Background on DoD Foreign Disaster Relief Operations                       1

             Legal Authority and DoD Policy for Foreign Disaster
	
                Relief Operations                                                1

             Organizations Involved in Foreign Disaster Relief                   2

             Foreign Disaster Relief Approval Process                            2

      DoD Directive on Foreign Disaster Relief Needs Updating                    4


Finding. Most Geographic Combatant Commands Effectively Planned and 

Executed Foreign Disaster Relief Operations, but Improvements Could Be Made 5
	

      Most Geographic Combatant Commands Effectively Planned and Executed

        Foreign Disaster Relief Operations                                       6

             Similarities Among Combatant Commands Foreign Disaster Relief

                Operations Planning                                              6

             Variations Exist in the Ability of Combatant Commands to Execute 

                Foreign Disaster Relief Operations                               7

      Implementing Best Practices Could Improve Combatant Commands Foreign 

        Disaster Relief Operations                                               8

             Formalized Combatant Commands Procedures Needed for Foreign 

                Disaster Relief Activities                                       8

             Expanded and Formal Information Sharing Is Needed                   9

             Combatant Commands Should Continue Strengthening Phase-Zero
	
                Activities                                                      10 

             Lessons Learned Could Be Captured and Shared More Effectively      11 

      DoD Needs Current Foreign Disaster Relief Guidance                        12 

             Requirements to Review DoD Issuances                               12 

             DoD Directive 5100.46 Needs to Be Updated                          12 

      Conclusion                                                                13 

      Management Comments on the Report and Our Response                        14 

      Recommendations, Management Comments, and Our Response                    14 

      Additional Comments on the Report and Our Response                        16 


Appendix

      Scope and Methodology                                                     19 

             Prior Coverage                                                     20 

Table of Contents (cont’d)

Management Comments

     Under Secretary of Defense for Policy Comments   21 

     U.S. European Command Comments                   23 

     U.S. Central Command Comments                    24 

     U.S. Southern Command Comments                   26 

     U.S. Pacific Command Comments                    28 

     U.S. Africa Command Comments                     29 

     Defense Security Cooperation Agency Comments     30 

     Joint Staff Comments                             35 

Introduction
Objective
Our objective was to evaluate the ability of the combatant commands (COCOMs) to plan
and execute disaster relief operations to prevent instability in their areas of responsibility
(AORs). However, we focused our fieldwork on evaluating the planning and execution
of foreign disaster relief (FDR) 1 operations by U.S. European (USEUCOM), Central
(USCENTCOM), Southern (USSOUTHCOM), Pacific (USPACOM), and Africa
(USAFRICOM) Commands to alleviate the suffering of foreign disaster victims. We
also assessed the support provided by DoD organizations to enable the COCOMs to
effectively conduct those operations. See the appendix for the scope and methodology
and prior coverage related to the objective.

Background on DoD Foreign Disaster Relief Operations
In recent years, DoD has had an increased role in FDR operations, particularly during
Operation Unified Response in response to the earthquake in Haiti in 2010 and Operation
Tomodachi in response to the earthquake and tsunami in Japan in 2011. Because of its
assets and capabilities, the U.S. military will continue to be called upon to provide aid
and assistance in the event of disasters like the Pakistan flooding in 2010 and the Turkey
earthquake in 2011. Military assets should be requested only when there is no
comparable civilian alternative and only when the use of military assets can meet a
critical humanitarian need. Therefore, the DoD assistance provided must be unique in
capability and availability.

Legal Authority and DoD Policy for Foreign Disaster Relief
Operations
DoD has the legal authority, under section 404, title 10, United States Code, to conduct
FDR operations outside the United States to respond to manmade or natural disasters
when necessary to prevent loss of lives or serious harm to the environment. Additionally,
section 2561, title 10, United States Code, provides legal authority for transporting
humanitarian relief and for other humanitarian purposes worldwide.

DoD Directive (DoDD) 5100.46, “Foreign Disaster Relief,” December 4, 1975, 2
established policy guidance and assigned responsibilities for FDR operations.
DoDD 5100.46 defined FDR as prompt aid that can be used to alleviate the suffering of
disaster victims.


1
  DoDD 5100.46 defines FDR as prompt aid that can be used to alleviate the suffering of foreign disaster
victims. Joint Publication 3-29 refers to FDR as foreign humanitarian assistance. Other terms used to
describe FDR are humanitarian assistance and disaster assistance. In this report, FDR will be the term used
to maintain consistency.
2
  On July 6, 2012, the Under Secretary of Defense for Policy reissued DoDD 5100.46, “Foreign Disaster
Relief.” We conducted this audit from September 2011 through June 2012; therefore, this report references
the policies and guidance that existed during that period.


                                                    1
	
In May 2004, the Assistant Secretary of Defense for Special Operations and
Low-Intensity Conflict (ASD [SO/LIC]) and the Defense Security Cooperation Agency
(DSCA) issued a joint message, “Policy and Procedures for DoD Participation in Foreign
Disaster Relief/Emergency Response Operations.” Although not a formal directive, it
provided updated policy and procedures for DoD participation in FDR operations.

Joint Publication 3-29, “Foreign Humanitarian Assistance,” March 17, 2009, provides
joint doctrine for planning, executing, and assessing foreign humanitarian assistance
operations. The publication applies to the Joint Staff, COCOM commanders, and the
Services, among others.

Organizations Involved in Foreign Disaster Relief
DoD works in concert with several U.S. Government agencies and offices to provide a
whole-of-Government response to foreign disasters consistent with U.S. foreign policy.
Key agencies and offices, such as the Department of State (DOS) and the U.S. Agency
for International Development (USAID) and its Office of Foreign Disaster Assistance
(OFDA) work in coordination with DoD organizations, such as the geographic COCOMs
and DSCA.

When an overseas disaster occurs, DOS is responsible for deciding whether emergency
FDR is consistent with U.S. foreign policy and whether DoD assistance is needed.
USAID is an independent Federal agency that receives overall foreign policy guidance
from the Secretary of State. USAID’s OFDA is the lead office in the U.S. Government
for facilitating and coordinating emergency assistance overseas. The office formulates
U.S. foreign disaster assistance policy in coordination with other Government agencies.
It coordinates with USAID offices and others to provide relief supplies and humanitarian
assistance. OFDA also develops and manages logistical, operational, and technical
support for disaster response.

According to DoDD 5100.46, the geographic COCOMs are responsible for conducting
FDR operations, as directed by the Joint Chiefs of Staff or higher authority. They are
also responsible for keeping the Joint Chiefs informed of details involving actual
participation in FDR operations. The combatant commanders develop and maintain
Commander’s estimates, base, concept, or operational plans for FDR operations.

DSCA is a DoD agency under the authority, direction, and control of the Under Secretary
of Defense for Policy. DSCA manages the Overseas Humanitarian, Disaster, and Civic
Aid (OHDACA) appropriation, which funds DoD humanitarian assistance and FDR and
emergency response.

Foreign Disaster Relief Approval Process
When a disaster occurs, the U.S. ambassador to the affected country sends a disaster
declaration cable to DOS, formally requesting U.S. Government assistance. The request
can be sent provided the affected country is overwhelmed and either requests or is willing
to accept U.S. Government assistance, and such assistance is in the U.S. interest.


                                            2
	
OFDA validates all requests for U.S. Government FDR assistance. OFDA, as the lead
Federal office, conducts a needs assessment to determine and coordinate the appropriate
U.S. response. In coordination with USAID/OFDA, the applicable COCOM may also
send a military team to the disaster site. The team will work closely with USAID/OFDA
representatives ensuring a coherent and comprehensive assessment of requirements and
proposed U.S. Government response. If OFDA validates a need for DoD assistance,
DOS formally requests assistance through an Executive Secretary memorandum.

ASD (SO/LIC) prepares and coordinates a recommendation on the appropriate level of
DoD assistance to be provided. The recommendation is forwarded to the Secretary of
Defense for review and approval. Approval is based on several factors including the
availability of requested support, the impact of such support on other military operations,
the urgency of the disaster situation, and the political implications of DoD involvement.

If the Secretary of Defense approves the recommendation, DSCA finalizes logistical and
financial details in coordination with the applicable COCOM, USAID, OFDA,
Joint Staff, and other relevant offices. The Secretary of Defense then issues a
memorandum to the COCOM Commander authorizing the command to support U.S.
Government FDR operations. The memorandum includes details of the approved
assistance, authorization to use OHDACA funding, and the amount approved. After
DSCA provides notification that preparations are complete, Joint Staff issues an order
directing the COCOM to execute the FDR operation. The figure below outlines the
general FDR approval process.

                     Figure. Foreign Disaster Relief Approval Process




Source: DoD Office of Inspector General.

In addition to the above process, COCOMs may also provide FDR assistance when lives
are in immediate danger and the COCOMs are in a position to provide immediate
life-saving assistance. However, the COCOM must follow-up as soon as possible, but


                                             3
	
not later than 72 hours after initiating assistance, to secure Office of the Secretary of
Defense (OSD) approval to continue assistance. The COCOM must end support once
life-threatening circumstances have been addressed, unless OSD gives approval to
continue providing support.

DoD Directive on Foreign Disaster Relief Needs
Updating
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. The Under Secretary of
Defense for Policy did not follow DoDI 5025.01, “DoD Directives Program,” July 1,
2010, which contains requirements for updating DoD issuances including directives.
DoDD 5100.46, “Foreign Disaster Relief,” had not been updated since it was issued in
1975. As a result, the Directive did not contain the accurate organizational entities
involved in FDR or their current responsibilities. Implementing Recommendation 3 will
aid DoD in ensuring that its DR policy reflects DoD’s current operations. We will
provide a copy of the report to the senior official responsible for internal controls in the
Office of the Under Secretary of Defense for Policy.




                                              4
	
Finding. Most Geographic COCOMs
Effectively Planned and Executed Foreign
Disaster Relief Operations, but
Improvements Could Be Made
The USEUCOM, USCENTCOM, USSOUTHCOM, and USPACOM have effectively
planned and executed several FDR operations. Additionally, DoD organizations
provided satisfactory support to COCOM FDR operations. However, improvements in
FDR operations are needed for:

    •	 implementing best practices, including:
          o	 updating and formalizing FDR procedures at the COCOM level,
          o	 information sharing with non-DoD partners,
          o	 increasing phase-zero activities, 3
          o	 capturing and sharing lessons learned with other COCOMs after a FDR
              operation, and
    •	 updating DoDD 5100.46.

Improvements are needed because COCOMs may not have known about or been required
to implement best practices to formalize procedures for FDR, expand information
sharing, increase phase-zero activities, and consistently share lessons learned about FDR
with other COCOMs. Furthermore, the Under Secretary of Defense for Policy did not
follow DoDI 5025.01 by not reviewing and regularly updating the 37-year-old
DoDD 5100.46, which describes DoD organizational responsibilities for FDR.

As a result, the most efficient practices for FDR are not known by all COCOMs. This is
especially important for COCOMs that have not executed a large FDR operation, such as
USAFRICOM, to prevent similar obstacles already faced and overcome at other
commands. Additionally, a lack of clear updated guidance can lead to inconsistent
interpretations of authorities and responsibilities to provide FDR assistance. Without best
practices and up-to-date FDR guidance, DoD is less likely to achieve efficiencies when
handling potential and actual FDR events.




3
  Phase-zero activities represent the normal, enduring, day-to-day operations before a crisis occurs;
primarily, identifying potential crises; maintaining situational awareness of crisis events; and educating,
training, and preparing our forces and our partner nations for disaster response.


                                                      5
	
Most Geographic COCOMs Effectively Planned and
Executed Foreign Disaster Relief Operations
Most COCOMs have effectively planned and executed several FDR operations. They
have applied the same basic framework to plan for FDR operations; however, the
COCOMs had different levels of experience in executing those operations. Specifically,
some COCOMs have executed various or large-scale FDR operations, while
USAFRICOM has executed only one.

Similarities Among COCOM Foreign Disaster Relief Operations
Planning
The COCOMs applied a similar framework in planning for FDR operations. These
effective practices included embedding an OFDA representative in the command,
conducting preliminary assessments, and coordinating internally among COCOM staff
sections. These similarities helped the COCOMs effectively prepare for FDR operations.

An OFDA representative was embedded within each COCOM to facilitate coordination
between the COCOM and OFDA throughout a FDR operation. Officials at several
COCOMs stated that the OFDA representative was extremely beneficial to coordination
during a FDR operation. OFDA coordinates the U.S. Government response; therefore,
having a representative embedded with the COCOM ensures that communication is
constant during each stage of a FDR operation. The early coordination allows the
COCOMs to proactively plan for a FDR response and ensures they can execute
immediately should assistance be requested. In order to achieve mission objectives
during a FDR operation, interagency coordination is essential for effective execution and
implementation.

Command officials stated that COCOMs had an operations center that monitors activity
in their AOR and when a disaster occurs, most COCOMs conduct a preliminary analysis
of the situation. For example, USEUCOM can initiate a “quick-look” when an event
occurs, but it does not know whether assistance will be requested. Personnel create a
briefing slide to scope the situation with background information on the incident and
what the Operations Directorate believes the COCOM could provide in the event
assistance is requested.

The COCOMs have also developed similar processes for effective internal coordination
between staff sections during planning for a FDR operation, most commonly known as an
operational planning team. A primary goal of this team is to develop initial options for
assistance and respond to any crisis in which military personnel, supplies, or equipment
may be committed. Some COCOMs concept plans identify staff sections that should
provide personnel to the operational planning team. For example, USPACOM’s
operational planning team reconvenes to refine initial assistance options, incorporate staff
inputs, and finalize all information into a concept of operations packaged in briefing
charts. The charts clearly and concisely express what will be accomplished and what
resources will be available. They also describe how military and supporting


                                             6
	
organizations’ actions will be integrated, synchronized, and phased in to accomplish the
mission. Once the USPACOM Commander approves the concept of operations, the
Operations Directorate submits it to the Joint Staff and OSD.

Most of the time, the operational planning team meets while the FDR approval process is
taking place. This allows the COCOM to have a concept of operations already developed
so that when it receives the execution order from the Joint Staff, the command is ready to
execute.

Variations Exist in the Ability of COCOMs to Execute Foreign
Disaster Relief Operations
Although all COCOMs followed a similar process when planning FDR operations, each
                                     COCOM had a different level of experience in its
   Each COCOM had a different        ability to execute FDR operations. For example,
  level of experience in its ability USEUCOM, USCENTCOM, USSOUTHCOM,
    to execute FDR operations.       and USPACOM have executed several FDR
                                     operations, some large-scale, while USAFRICOM
has executed only one FDR operation.

   •	 USEUCOM has responded to three disasters since 2010, including an earthquake
      in Turkey and wildfires in Israel and Russia.

   •	 USCENTCOM provided FDR assistance to Pakistan as a result of flooding in
      2010.

   •	 USSOUTHCOM provided FDR assistance to Haiti in 2010. Operation Unified
      Response was a large-scale operation to provide life-saving assistance and deliver
      millions of pounds of food and water following a significant earthquake in
      Port-au-Prince, Haiti.

   •	 USPACOM provided FDR assistance to Japan in 2011. The large-scale operation
      was conducted in the aftermath of an earthquake and tsunami.

In 2011, USAFRICOM executed one small-scale FDR operation in support of the
operations in Libya. A USAFRICOM official said that the command used OHDACA
funds to purchase ambulances and supplies and restore buildings in Libya. However, this
is the only time USAFRICOM has executed a FDR response. USAFRICOM officials
also stated that this is partially because of their unique AOR and the large presence of
non-governmental organizations and the United Nations. Furthermore, an USAFRICOM
official said that a lack of assets and assigned forces could cause an issue if the
USAFRICOM is ever required to respond to a disaster in the future. Many extremist
organizations within the USAFRICOM AOR pose significant threats to regional stability
and U.S. national interests, and several of Africa’s fragile states lack the capacity to
effectively address social and economic challenges. These factors increase the likelihood
that U.S. Government assistance could be requested to respond to a manmade or natural
disaster.


                                            7
	
Implementing Best Practices Could Improve COCOM
Foreign Disaster Relief Operations
Although COCOMs effectively planned and executed FDR operations, these operations
could be improved by implementing best practices, such as formalizing FDR response
procedures, promoting information sharing, increasing phase-zero activities, and
promoting the sharing of lessons learned. Improvements are needed because COCOMs
may not have been aware or were not required to implement these best practices.
Without best practices and up-to-date FDR guidance, DoD is less likely to achieve
efficiencies when handling potential and actual FDR events.

Formalized COCOM Procedures Needed for Foreign Disaster
Relief Activities
COCOMs could improve their ability to respond to disasters by creating a formalized,
concise procedural document that describes the process for how the command prepares
for, and responds to, disasters in their AOR. Although most commands had a strategic
concept plan to describe the general roles and responsibilities during FDR operations,
these documents did not provide a concise description of the fast-paced FDR response
process at the command.

Most COCOMs had a strategic concept plan for FDR operations. For example,
“Commander, USSOUTHCOM Concept Plan 6150-10,” delineates DoD and
USSOUTHCOM direction for the use of military resources during FDR operations, and
assigns responsibilities for carrying out these operations within the command’s AOR.
The document consists of a 40-page base plan and multiple annexes. This type of
strategic concept plan is a vital document to delineate staff roles and responsibilities;
however, it does not provide a concise description of the response process at the
command.

The need for a concise procedural document was highlighted by one command producing
an informal document to help describe the command processes for FDR operations.
For example, when USCENTCOM was preparing for a possible FDR operation during
                                    the 2010 flooding in Pakistan, USCENTCOM
       The need for a concise       personnel stated that the command had not executed
     procedural document was        a FDR operation in a few years, and some command
    highlighted by one command      personnel did not know the command process for
       producing an informal        FDR operations. As a result, a USCENTCOM
   document to help describe the    official produced a one-page information paper
          command process           describing the overall U.S. Government process for
        for FDR operations.         responding to disasters, the process for DoD
                                    involvement, and the related authorities. The final
section of the information paper was “General Key Directorate Responsibilities,” which
the document stated was in development. The creation of this document is a good
example of the need for a procedural document to inform key personnel of the
command’s FDR response process.



                                             8
	
USPACOM was the only command we visited that had a command-approved procedural
document that outlined the command procedures for FDR operations. The 23-page
Power-Point presentation, according to a USPACOM official, was reviewed by most
command directorates and approved at the general officer, flag officer, or Senior
Executive Service level. Further, the document was reviewed and approved every 6
months and distributed through official command channels. The procedural document
contains a number of important elements to inform command personnel of the process for
responding to disasters in their AOR, such as:

   •   FDR strategic framework,
   •   FDR operational framework,
   •   commander’s intent,
   •   AOR intelligence assessment,
   •   FDR response timeline and process,
	
   •   operational planning team participants and deliverables,
	
   •   forces available, and
   •   suggested FDR training.

This document and its elements are good examples of the formalized procedures that
other COCOMs can build on to improve their command’s ability to plan and execute
FDR operations. Additionally, providing an overview of how FDR operations are funded
would inform COCOM personnel of the unique process used to fund FDR operations.

Implementation of a concise, command-approved procedural document that incorporates,
at a minimum, the elements shown above, could benefit all commands that conduct FDR
operations. Specifically, a USPACOM official explained that the document would
inform action officers and key players of the command-approved process for responding
to disasters. Furthermore, maintaining a procedural document would provide continuity
during command personnel rotations and inform command personnel on what is expected
of others during a FDR operation.

Expanded and Formal Information Sharing Is Needed
Multiple COCOMs identified information sharing with non-DoD partners as a challenge
during FDR operations. Some commands have taken steps to expand the information
sharing avenues during FDR operations. For example, some COCOMs have
implemented the use of Web-based portals, and resisted the tendency to overclassify FDR
related information. Additionally, COCOM personnel stressed the importance of
working in an unclassified environment, when possible. Although these efforts are steps
in the right direction, information sharing remains a challenge for commands. COCOMs
can realize efficiencies in FDR operations by promoting unclassified information sharing
and further considering the best way to make critical information widely available
through new or existing information sharing avenues.

Joint Publication 3-29 highlights the importance of information sharing with non-DoD
partners and the need for more civil-military collaboration.



                                            9
	
The publication states that:

               making critical information widely available to multiple responding
               civilian and military elements not only reduces duplication of effort,
               but also enhances coordination and collaboration and provides a
               common knowledge base so that critical information can be pooled,
               analyzed, compared, contrasted, validated, and reconciled. Civil-
               military collaboration networks need to be designed to dismantle
               traditional institutional stovepipes and facilitate the sharing of
               information among civilian and military organizations.

COCOM officials identified a variety of methods used to share information with
non-DoD partners during a FDR operation. For example, USCENTCOM officials said
that they communicate with non-DoD partners by e-mail through the Non-Secure Internet
Protocol Router Network. Other COCOMs use portals such as the All Partners Access
Network, which provides a platform to share information through blogs, document
sharing, planning and discussion forums, and posting photos. Additionally, some
commands access the United Nations Relief Web System to obtain information on FDR
efforts. Although these communication and information sharing channels are a step in
the right direction, DoD officials stated that challenges remain because multiple
information sharing avenues exist to DoD and some relief organizations are reluctant to
use DoD-operated portals.

The COCOMs challenges to sharing information during FDR operations could lead to
duplication of effort and impact the command’s ability to accurately plan and execute
relief operations. Making information that could be beneficial to other organizations
widely available would demonstrate DoD’s willingness to share information with
non-DoD partners. When possible, commands should also avoid the overclassification of
FDR-related information. Additionally, the Under Secretary of Defense for Policy and
the COCOMs should consider the best way to share information with non-DoD partners
through new and/or existing information sharing avenues.

COCOMs Should Continue Strengthening Phase-Zero Activities
All COCOMs conducted selected phase-zero activities to enhance disaster response
preparedness and capabilities. Examples of these activities include establishing
                                          memoranda of understanding between the DoD
  COCOMs could realize additional         and non-DoD partners; developing Acquisition,
        efficiencies during FDR           Cross-Servicing  Agreements; and conducting
    operations through phase-zero         multi-national exercises. Officials from most
    activities that increase both the     COCOMs emphasized the importance of using
    capacity of partner nations and       phase-zero activities to proactively prepare for
      DoD’s ability to respond to         conducting successful operations once a disaster
                disasters.                occurs. COCOMs could realize additional
                                          efficiencies during FDR operations through
phase-zero activities that increase both the capacity of partner nations and DoD’s ability
to respond to disasters.




                                                  10
	
For example, USSOUTHCOM has a memorandum of understanding with Food for the
Poor to promote community-based development, human capacity strengthening, and
disaster preparedness. The memorandum allows for coordination and the contribution of
assets to achieve common goals within desired countries. Memoranda of understanding
such as this help build relationships between DoD and non-DoD partners, which
maximizes efforts and lowers costs to accomplish common goals.

Acquisition, Cross-Servicing Agreements are agreements between two parties to facilitate
logistic support, supplies, or services such as petroleum, transportation, medical services,
and/or airlift. For example, in May 2011, the United States signed an Acquisition, Cross-
Servicing Agreement with Spain. The benefits of these agreements include promotion of
interoperability, enhancement of operational readiness, cost-effective mutual support,
reduced deployment footprint for joint exercises, and responsive support during FDR
operations.

In 2011, USCENTCOM participated in Regional Cooperation, a large-scale multinational
exercise conducted in the Republic of Tajikistan, to achieve unity among the countries of
Central and South Asia. The exercise focused on emergency disaster response,
developing tools for better coordination during multinational operations, and improving
international civil-military cooperation.

By strengthening phase-zero activities related to FDR operations, commands can realize
efficiencies when a disaster response is needed. For example, if partner nations are better
prepared to respond to disasters, they will be less reliant on DoD or U.S. Government
assistance. This will also help the governments of U.S. allies be viewed more positively
by their citizens. Additionally, by establishing relationships through exercises with other
countries, command personnel will know who they need to engage with rather than
meeting for the first time during an actual disaster response resulting in a faster and more
efficient DoD response.

Lessons Learned Could Be Captured and Shared
More Effectively
COCOM personnel completed lessons learned and after-action reports after FDR
operations and major exercises. A Joint Staff official stated that the primary system used
to share lessons learned is the Joint Lessons Learned Information System, which
facilitates the collection and dissemination of lessons learned to improve the development
and readiness of the Joint Force. The system provides a standard process for
disseminating critical lessons learned across organizations for operations, exercises,
training, and real-world events. All COCOMs use the Joint Lessons Learned Information
System; however, how extensively COCOM personnel share command-created
after-action reports or use the information shared by other commands is unclear.

The Joint Center for Operations Analysis, part of the now disestablished U.S. Joint
Forces Command, created an information paper in July 2011 on lessons learned from
multiple FDR operations. The intent of the paper is to inform senior leaders and planners
about the challenges they could face in future FDR operations. Common themes


                                            11
	
identified in the paper include the speed of initial response, existing theater engagement,
and coordination with host-nation governments and other organizations. This standalone
document is potentially as helpful as multiple after-action reports and contains
information that COCOMs can use to shape planning and execution efforts for FDR
operations. This information is especially important for COCOMs that have not
conducted large-scale FDR operations, such as USAFRICOM, and can help them
overcome preventable obstacles.
The information paper prepared by the Joint Center for Operations Analysis is an
example of the type of information that COCOMs should share. Sharing lessons learned
and after-action reports with similar information can assist other COCOMs to effectively
conduct FDR operations. The Joint Lessons Learned Information System is just one way
commands can access the lessons learned by other COCOMs. Ensuring that commands
share and review other COCOMs’ after-action reports will also help avoid preventable
obstacles.

DoD Needs Current Foreign Disaster Relief Guidance
DoDD 5100.46 establishes policy for the use of DoD resources in FDR operations and
assigns responsibilities for the implementation of those policies; however, it has not been
updated since 1975. DoD needs updated FDR policy to reflect the accurate
organizational entities involved in FDR and their current responsibilities.

Requirements to Review DoD Issuances
DoDI 5025.01 requires all DoD directives to be reviewed before the 5-year anniversary
of publication to ensure they are necessary, current, and consistent with DoD policy and
statutory authority by being reissued, certified as current, or canceled. If certified as
current, the issuance must be revised and reissued or canceled within 7 years of
publication. Specifically, each issuance is reviewed to determine whether each authority
or responsibility is a current requirement and is appropriately assigned and whether the
organizational entities cited are accurate. If no change is required at the 5-year review, a
memorandum must be issued to certify that the review requirements were met and
identify any administrative changes required, such as updating organizational names.

DoDD 5100.46 Needs to Be Updated
The Under Secretary of Defense for Policy did not follow DoDI 5025.01 by not revising
and reissuing, or certifying as current, the 37-year-old DoDD 5100.46. Specifically, the
Directive did not contain roles and responsibilities of some of the key organizations
involved in FDR operations, such as OFDA and ASD (SO/LIC). In addition, the process
detailed in the Directive does not accurately describe the current practices used to plan
and execute FDR operations.




                                             12
	
For example, the following organizations play a role in DoD FDR operations but are not
mentioned in DoDD 5100.46:

   •	   OFDA is the lead Federal office for FDR operations. An OFDA representative is
        embedded at each COCOM and plays a key coordination role between OFDA and
        the COCOM during all phases of FDR operations.

   •	   ASD (SO/LIC) prepares and coordinates a recommendation to the Secretary of
        Defense on the appropriate level of DoD FDR assistance to be provided.
        The Directive states that requests are sent to the Assistant Secretary of Defense
        for International Security Affairs.

   •	   DSCA manages the OHDACA funding for FDR operations. The Directive states
        that the request from DOS contains an amount of funding allocated to DoD.
        However, OHDACA now funds DoD FDR operations, and the approved amount
        is stated in the memorandum authorizing execution that the Secretary of Defense
        sends to the COCOM.

As a result of not being reissued or certified as current since 1975, DoDD 5100.46 did not
contain the accurate organizational entities involved in FDR or their current
responsibilities. In addition, the Directive was not consistent with how FDR is currently
planned and executed. Although there was a 2004 guidance update that provided some
detail on the approval process, COCOMs lack formal guidance that reflects the current
FDR environment on which to base their concept of operation plans for FDR. Although
OFDA, ASD (SO/LIC), and DSCA are discussed in the 2004 guidance, an updated
directive was needed to ensure that all COCOMs are operating under the same guidelines
and standards. A lack of clear updated guidance could lead to inconsistent interpretations
of authorities and responsibilities to provide FDR assistance.

Conclusion
In the event of disasters, such as, the earthquake in Turkey (2011), the flooding in
Pakistan (2010), the earthquake in Haiti (2010), and the earthquake and tsunami in Japan
(2011), the U.S. military has and will continue to provide aid and assistance because of
its unique assets and capabilities. FDR enhances relationships with host nations and
non-DoD partners and helps partner nations better prepare to respond to disasters.

To maximize the benefits that come from conducting FDR operations, COCOMs should
consider implementing the best practices identified in this report. In the past, COCOMs
may not have known about or were not required to implement best practices. Best
practices will allow the most efficient practices for FDR to be available to all COCOMs.
For example, similar obstacles faced and overcome at one command can be prevented at
another. In addition, clear, updated guidance can improve the understanding of
authorities and responsibilities to provide FDR assistance. Without best practices and
up-to-date FDR guidance, DoD is less likely to achieve efficiencies when handling
potential and actual FDR events.



                                             13
	
Management Comments on the Report and
Our Response
Under Secretary of Defense for Policy Comments
The Director, Humanitarian Assistance, Disaster Relief and Global Health, responded on
behalf of the Under Secretary of Defense for Policy. The Director defined FDR
and identified the three instances when DoD may provide FDR in support of U.S.
Government efforts as outlined in the new DoDD 5100.46, “Foreign Disaster Relief,”
July 6, 2012. The Director also noted that the U.S. military is not an instrument of first
resort in responding to foreign disasters; rather, it supports civilian assistance.

Our Response
We agree with the Director’s comments regarding the purpose of FDR and the instances
in which DoD may provide assistance or become participants in FDR operations.
Although differences in wording may exist, the Director’s comments were consistent
with our report. In our report, we defined FDR and discussed when DoD may provide
assistance; however, during our audit, the newly issued DoDD 5100.46 was not in effect.
We referenced the DoDD 5100.46 and other publications in effect at the time of our
review. Specifically, we referenced the May 2004 policy memorandum, “Policy and
Procedures for DoD Participation in Foreign Disaster Relief/Emergency Response
Operations,” because the December 4, 1975, DoDD 5100.46 only stated one way for
DoD to provide FDR assistance. In addition, we agree that the U.S. military is not a first
resort, and military assets should be requested only when there is no comparable civilian
alternative and when the use of military assets can meet a critical humanitarian need.

Recommendations, Management Comments, and
Our Response
1. We recommend that the Commander, U.S. European Command; Commander,
U.S. Central Command; Commander, U.S. Southern Command; Commander,
U.S. Pacific Command; and Commander, U.S. Africa Command, implement best
practices for foreign disaster relief in key areas, such as command procedures,
information sharing, phase-zero activities, and dissemination of lessons learned.

U.S. European Command, U.S. Central Command, U.S. Southern
Command, U.S. Pacific Command, and U.S. Africa Command
Comments
The Chief of Plans Division, J-35, USEUCOM; the Executive Director Inspector
General, USCENTCOM; the Director of Theater Engagement, J7, USSOUTHCOM; the
Deputy Director for Operations, USPACOM; and the Director of Strategy and Plans, J5,
USAFRICOM responded on behalf of the Commanders, USEUCOM, USCENTCOM,
USSOUTHCOM, USPACOM, and USAFRICOM, and agreed with the recommendation.
The Chief of Plans, USEUCOM stated that USEUCOM plans to review disaster relief
plans from other COCOMs in order to incorporate concepts, ideas, and best practices


                                            14
	
from those plans into the USEUCOM plan. The estimated completion date for this is
February 2013. The Executive Director Inspector General, USCENTCOM stated that
USCENTCOM published Contingency Plan 1211-12 which provides guidance on foreign
humanitarian assistance/disaster relief execution, and their Joint Operations Center
maintains all crisis action team records for disaster relief operations. Additionally, the
Executive Director Inspector General, USCENTCOM, noted that the recommendation
could be further implemented with additional guidance from the Under Secretary of
Defense for Policy or Joint Staff with specific examples of the best practices that all
COCOMs should use to better plan and execute FDR operations. The Director of Theater
Engagement, USSOUTHCOM, stated that USSOUTHCOM is using Disaster Awareness
to promote unclassified information sharing and has also fully implemented the Joint
Lessons Learned Information System as the command’s system of record. The Deputy
Director for Operations, USPACOM, stated that USPACOM already implements the best
practices recommended in the report and will continue to share lessons learned through
the Joint Lessons Learned Information System. The Director of Strategy and Plans,
USAFRICOM, stated that USAFRICOM published AFRICOM Command Instruction
3200.13, “Crisis Joint Standing Operating Procedure,” March 23, 2012, to standardize the
planning processes across directorates and ensure a timely response to crises. In addition,
the Director of Strategy and Plans, USAFRICOM, noted that Contingency Plan 7200-11,
“Foreign Humanitarian Assistance,” July 1, 2011, directs all joint planning teams to
create products to the maximum extent possible at the unclassified level. Furthermore,
the Director of Strategy and Plans, USAFRICOM, noted that USAFRICOM is an active
participant in the Joint Lessons Learned Information System.

Our Response
Comments from all Commands were responsive, and no further comments are required.

2. We recommend that the Under Secretary of Defense for Policy, in coordination
with geographic combatant commanders, conduct a study to identify steps that can
be taken to improve information sharing capabilities with non-DoD partners during
foreign disaster relief operations through new or existing information sharing
avenues.

Under Secretary of Defense for Policy Comments
The Director, Humanitarian Assistance, Disaster Relief and Global Health, responded on
behalf of the Under Secretary of Defense for Policy. The Director stated that over the
last 2 years, DoD has benefited from studies, white papers, and seminars conducted by
various organizations to evaluate and implement options for improving information
sharing internally, within the civilian interagency, and with nongovernmental
organizations. The Director gave several examples used by various COCOMs, such as
the All Partners Access Network. The Director also stated that DoD has been working
with various organizations on ways to improve information sharing between DoD and
non-DoD partners. In addition, the Director noted other efforts supporting information
sharing such as the Joint Center for Lessons Learned which collects and disseminates
relevant lessons learned to enhance joint operations capabilities, including FDR
operations.


                                            15
	
Our Response
The comments from the Director, Humanitarian Assistance, Disaster Relief and Global
Health were partially responsive. The Director did not state agreement or disagreement
with the recommendation. However, the Director did provide examples of studies DoD
has benefited from for improving information sharing and stated that DoD will continue
to work with pertinent parties to improve processes and share lessons learned. The
actions taken met the intent of the recommendation. Therefore, no further comments are
required.

3. We recommend that the Under Secretary of Defense for Policy:

       a. Revise DoD Directive 5100.46, “Foreign Disaster Relief,” to accurately
describe DoD’s organizational roles and responsibilities for disaster relief.

       b. Regularly review and reissue DoD Directive 5100.46 as required.

Under Secretary of Defense for Policy Comments
The Director, Humanitarian Assistance, Disaster Relief and Global Health responded on
behalf of the Under Secretary of Defense for Policy. The Director noted that DoD
Directive 5100.46, “Foreign Disaster Relief,” was reissued on July 6, 2012, and will be
reviewed and updated as appropriate. Specifically, the updated directive states that it
must be reissued, cancelled, or certified current within 5 years of its publication in
accordance with DoDI 5025.01, or it will expire effective July 6, 2022, and be removed
from the DoD Issuances Web site.

Our Response
The comments from the Director, Humanitarian Assistance, Disaster Relief and Global
Health were partially responsive. The Director did not state agreement or disagreement
with the recommendation. However, the Under Secretary of Defense for Policy issued
the updated DoD Directive 5100.46 on July 6, 2012. The updated directive includes
guidance as to when DoD has the authority to provide FDR assistance and how assistance
can be requested. It also briefly discusses the use of OHDACA to fund DoD FDR
operations and now contains the accurate organizational entities involved in FDR
operations and their current responsibilities. This will continue to ensure that all
COCOMs are operating under the same guidelines and standards and are aware of the
proper authorities related to FDR operations. The actions taken met the intent of the
recommendation. Therefore, no further comments are required.

Additional Comments on the Report and Our Response
Although not required to comment, the Acting Principal Director, Programs, DSCA; and
the Deputy Director, Partnership Strategy, Joint Staff J-5, provided the following
comments on the report. For the full text, see the Management Comments section of the
report.




                                           16
	
Defense Security Cooperation Agency Comments
The Acting Principal Director, DSCA, did not agree with the audit objective and
recommended that it should be changed. Additionally, the Acting Principal Director,
DSCA, stated that DSCA does not perform operational and tactical level execution for
FDR nor does DSCA provide notification to Joint Staff that preparations are complete.
The Director, DSCA, also stated that while DoDD 5100.46 established DoD FDR
policy, it was not a procedural document that can assist COCOMs with an overview of
best practices or lessons learned and there was no connection between an outdated
directive and a lack of knowledge of “efficient practices.” Additionally, the Acting
Principal Director noted that we referenced the Non-Secure Internet Protocol Router
Network as a special communication tool used by USCENTCOM and we should have
focused that section of the report on the benefits of using that method over
communicating on classified networks. Additional comments included observations or
addressed preferences for adding information in the report. Specific examples addressed
in our response include the Acting Principal Director’s suggestions that we include a
discussion of how the other layers of DoD interact and possible recommendations for
improvements in the interaction of the COCOMs and DoD personnel in Washington,
D.C., during FDR events. The Acting Principal Director also recommended that we
expand the recommendation to the Under Secretary of Defense for Policy to include a
review of internal communication processes.

Our Response
The statements identified regarding DSCA’s role in the approval process were based on
the May 2004 policy memorandum, “Policy and Procedures for DoD Participation in
Foreign Disaster Relief/Emergency Response Operations.” Although not a formal
directive, at the time of our review, it provided updated policy and procedures for DoD
participation in FDR operations. The statement in the finding regarding efficient
practices not being known by all COCOMs references the effect of having not
implemented best practices and was not related to the discussion regarding
DoDD 5100.46. We agree with DSCA that the use of unclassified networks enables
greater communication with non-DoD partners who do not have access to classified
networks. The purpose of the paragraph was to identify the methods COCOMs were
currently using to share unclassified information with non-DoD partners and to highlight
that challenges still existed. In addition, we recognize that DoD has a supporting role in
FDR operations and the COCOMs are responsible for conducting FDR operations as
directed. However, we focused our report primarily on the COCOM’s ability to plan and
execute FDR operations but did assess the support provided by DoD organizations to
enable the COCOMs to effectively conduct FDR operations and found that DoD
organizations provided satisfactory support with the exception of the outdated
DoDD 5100.46.

Joint Staff Comments
The Deputy Director, Partnership Strategy, Joint Staff J-5, agreed with the report’s
finding but noted that DoD’s involvement in FDR is not to prevent instability in a
geographic combatant command’s area of responsibility as the objective of the report
states. The Deputy Director further stated that while regional stability may be affected by


                                            17
	
FDR operations, it is simply a potential by-product of those operations, not an objective.
Additionally, the Deputy Director noted the importance of clearly identifying when DoD
may provide FDR in support of U.S. Government efforts.

Our Response
We agree that regional stability is not an objective of FDR operations, rather a
by-product. However, the intent of the Objective section of the report was to restate the
audit objective as it was announced. In the report we defined FDR as prompt aid that can
be used to alleviate the suffering of disaster victims. We agree with the importance of
clearly identifying when DoD may provide FDR support. As stated in our response to the
Under Secretary of Defense for Policy’s comments, at the time of our audit work, the
newly issued DoDD 5100.46 was not in effect so our report made reference to policy
from the DoDD 5100.46 and other publications in effect during the audit timeframe.




                                            18
	
Appendix. Scope and Methodology
We conducted this performance audit from September 2011 through June 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We contacted, visited, or interviewed officials from the following organizations.

   •	   Under Secretary of Defense for Policy
   •	   USEUCOM
   •	   USCENTCOM
   •	   USSOUTHCOM
   •	   USPACOM
            o	 Pacific Disaster Center
            o	 Center for Excellence in Disaster Management and Humanitarian
                Assistance
   •	   USAFRICOM
   •	   U.S. Transportation Command
   •	   DSCA
   •	   Joint Staff
   •	   OFDA

We evaluated the planning and execution of FDR operations by USEUCOM,
USCENTCOM, USSOUTHCOM, USPACOM, and USAFRICOM. We reviewed and
analyzed Joint Publication 3-29, “Foreign Humanitarian Assistance,” March 17, 2009;
and DoDD 5100.46, “Foreign Disaster Relief,” December 4, 1975, to determine DoD
policy for conducting FDR operations. We also reviewed and analyzed a 2004
memorandum to determine guidance for the COCOMs’ inherent authority to conduct
immediate life-saving FDR operations without OSD approval. In addition, we reviewed
and analyzed DoDI 5025.01, “DoD Directives Program,” July 1, 2010, to determine
procedures governing DoD issuances.

To gain an understanding of how COCOMs plan and execute FDR operations, we visited
USEUCOM, USSOUTHCOM, USPACOM, and USAFRICOM and met with applicable
staff directorates to discuss their roles and responsibilities in planning and executing an
FDR operation. We also spoke with officials from USCENTCOM to learn how they
conduct FDR operations. We gathered documentation from the COCOMs related to the
planning and execution of FDR operations, including: sample concepts of operations,
information on training and exercises, funding data, and after-action reports. In addition,
we obtained the concept plans from several COCOMs to determine the command-level
policy for FDR operations.


                                            19
	
Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) issued two reports
discussing FDR operations. Unrestricted GAO reports can be accessed over the Internet
at http://www.gao.gov.

GAO
GAO Report No. GAO-12-359, “Humanitarian and Development Assistance: Project
Evaluations and Better Information Sharing Needed to Manage the Military’s Efforts,”
February 8, 2012

GAO Report No. GAO-10-801, “Defense Management: U.S. Southern Command
Demonstrates Interagency Collaboration, but Its Haiti Disaster Response Revealed
Challenges Conducting a Large Military Operation,” July 28, 2010




                                          20
	
Under Secretary of Defense for Policy Comments





                  Click to add JPEG file




                                   21
Click to add JPEG file




                 22
U.S. European Command Comments





               Click to add JPEG file




                                23
U.S. Central Command Comments





                Click to add JPEG file




                                 24
Click to add JPEG file




                 25
U.S. Southern Command Comments





                Click to add JPEG file




                                 26
Click to add JPEG file




                 27
U.S. Pacific Command Comments





                Click to add JPEG file




                                 28
U.S. Africa Command Comments





                Click to add JPEG file




                                 29
Defense Security Cooperation Agency Comments





                 Click to add JPEG file




                                  30
                            Final Report 

                             Reference





                         Page 1- Audit
                         Objective




Click to add JPEG file
                         Page 3- Revised
                         Sentence




                 31
Click to add JPEG file




                 32
Click to add JPEG file




                 33
                            Final Report 

                             Reference





                         Page 10- Revised
                         Section Title




Click to add JPEG file




                 34
Joint Staff Comments                         Final Report
                                              Reference




                                          Page 1- Audit
                                          Objective
                 Click to add JPEG file




                                  35
Click to add JPEG file




                 36
